HHS/OIG, Audit - "Review of Undistributable Child Support Collections in
Georgia From October 1, 1998, Through December 31, 2005," (A-04-06-03506)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Undistributable Child Support Collections in
Georgia From October 1, 1998, Through December 31, 2005," (A-04-06-03506)
December 17, 2007
Complete
Text of Report is available in PDF format (423 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
From 1998 to 2001, the State agency appropriately
recognized and reported program income for undistributable child support
collections.  However, for 2002 through 2005, the State agency did not report
program income totaling $360,286 ($237,789 Federal share) for undistributable
collections that it had recognized as abandoned.  State agency officials said
that they did not report the undistributable collections as program income
because their accounting personnel were not aware of the Federal reporting
requirements.
Except as discussed in the Other Matter section of our report, the State
agency appropriately reported program income for interest earned on its child
support collections.
We recommend that the State agency (1) ensure that the $360,286 ($237,789
Federal share) in undistributable child support collections previously reported
on Federal Form OCSE-34A, Child Support Enforcement Program Quarterly Report of
Collections, is reported as program income on the next quarterly Federal Form
OCSE-396A, Child Support Enforcement Program Financial Report, and (2) provide
guidance and training to its accounting personnel on how to accurately report
undistributable child support collections recognized as abandoned on Form
OCSE-34A as program income on Form OCSE-396A to offset program expenditures.
The State agency concurred with our recommendations.